Audit Report



Return
    to the USDOJ/OIG Home Page



Office of
Community Oriented Policing Services
Grants to the
Auburn Police Department
Auburn, Washington
GR-90-02-010
March 2002 
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Auburn, Washington Police Department (APD).  The purpose of the grants is to enhance community policing.  The APD was awarded a total of $551,994 to hire six new police officers and redeploy the equivalent of 2.8 existing full-time police officers from administrative duties to community policing.

We reviewed the APD's compliance with seven essential grant conditions and found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, redeployment tracking, community policing and retention of officer positions.  As a result of the deficiency identified below, we question $5,514 in grant funds received. 1

The APD failed to meet the local match for the MORE 96 grant.

This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.





Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.